No.
IN THE
SUPREME COURT OF THE UNITED STATES
Makeda Haile,
Petitioner
v.
Abdul Conteh,
Respondent
PROOF OF SERVICE
I, Makeda Haile, do swear or declare that on this date, 3A
, 2020, as required by
Supreme Court Rule 29 I have served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA
PAUPERIS AND PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding or
that party's counsel, and on every other person required to be served, by depositing an
envelope containing the above documents in the United States mail properly addressed to each
of them and with first-class postage prepaid delivery within 3 calendar days.
The name and address of the served is as follows:
Abdul Conteh Attorney
2703 Sedona Creek Drive
Missouri City, TX 77459

General of the United States,
Department of Justice,
950, Pennsylvania Ave, N.W.,
Washington, DC 20530-0001.

Solicitor General of the United States, Room 5614
Department of Justice, 950 Pennsylvania Ave.,
N.W., Washington, D.C. 20530-0001.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

(3

, 2020

36

